No. 20-843
IN THE SUPREME COURT OF THE UNITED STATES
NEW YORK STATE RIFLE & PISTOL ASSOCIATION,
INC., ROBERT NASH and BRANDON KOCH,
Petitioners,
V.

KEITH M. CORLETT, in His Official Capacity
as Superintendent of New York State Police and RICHARD J.
MCNALLY, JR., in His Official Capacity as Justice of the New
York Supreme Court, Third Judicial District, and Licensing
Officer for Rensselaer County,
Respondents.

PROOF OF SERVICE
I, Ivan Diaz, do swear that on this date, July 20, 2021, as required by Supreme
Court Rule 29, I have served the enclosed BRIEF OF THE BLACK ATTORNEYS
OF LEGAL AID, THE BRONX DEFENDERS, BROOKLYN DEFENDER
SERVICES, ET AL. AS AMICI CURIAE IN SUPPORT OF PETITIONERS on each
party to the above proceeding or that party's counsel, and on every other person
required to be served, by giving three true copies of same, addressed to each
individual respectively, and enclosed in a properly addressed wrapper, to Federal
Express for Overnight Delivery, postage prepaid.
The names and addresses of those served are as follows:
PAUL D. CLEMENT
Counsel of Record
KIRKLAND & ELLIS LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
2023895000
paul.clement@kirkland.com
Attorneys for Petitioners

BARBARA DALE UNDERWOOD
Counsel of Record
SOLICITOR GENERAL
OFFICE OF THE ATTORNEY GENERAL
28 Liberty Street
New York, NY 10005-1400
barbara.underwood@ag.ny.gov
212-416-8016
Attorneys for Respondents
That on the same date as above, I sent to this court forty copies of the within BRIEF
OF THE BLACK ATTORNEYS OF LEGAL AID, THE BRONX DEFENDERS,
BROOKLYN DEFENDER SERVICES, ET AL. AS AMICI CURIAE IN SUPPORT
OF PETITIONERS via Federal Express Overnight Delivery, postage prepaid.
All parties required to be served h ave been served.
I declare under penalty of perjury that the foregoing is true and correct.

Sworn to before me on this
July.

20u

2021.

ERIC R. LARKE
Notary Public, State of New York
No. 01LA5067236
Qualified in Westchester Cou nty
Commission Expires March 5, 2023

;ft
Ivan Diaz

